No.

 

 

IN THE

Supreme Court of the United States

BRISTOL-MYERS SQUIBB CO., SANOFI-AVENTIS U.S. LLC,
SANOFI US SERVICES INC., FORMERLY KNOWN AS SANOFI-
AVENTIS U.S. INC., AND SANOFI-SYNTHELABO LLC,

PETITIONERS

ve

CLARE E. CONNORS, IN HER OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF THE STATE OF HAWAII

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 17, 2021.

0 Ma
Colin Casey Hog:

Wilson-Epes Printing Co., Inc.
